Nos. 19-431 & 19-454

 

 

IN THE

Supreme Court of the United States

THE LITTLE SISTERS OF THE POOR
SAINTS PETER AND PAUL HoME, Petitioner,
v.

THE COMMONWEALTH OF PENNSYLVANIA AND THE
STATE OF NEW JERSEY, ET AL., Respondents.

DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES,
ETAL., Petitioners,

v.

COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

On Writs of Certiorari to the
United States Court of Appeals for the Third Circuit

BRIEF OF PROFESSOR DOUGLAS LAYCOCK
AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
4,873 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 9, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
